BECK ER GALL AGHE R
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoin g Petition for Writ of Certiora ri in Michael
Skidmor e, Trustee for the Randy Craig Wolfe Trust v.
Led Zeppelin et al., was sent via Next Day Service to
the U.S. Suprem e Court, and 3 copies were sent via
Next Day Service and e-mail to the following parties
listed below, this 6th day of August, 2020:
Helene Freeman , Esquire
666 Fifth Avenue
New York, NY 10103-0 084
(212) 841-054 7
hfreema n@phill ipsnizer .com
Attorney for Respond ents
James Patrick Page, Robert Anthony Plant, and John
Paul Jones (collectively with John Bonham (Deceased),
professi onally known as Led Zeppelin )

Peter J. Anderso n, Esquire
865 S Figuero a Street I Suite 2400
Los Angeles , CA 90017
(213) 633-680 0
peterand erson@d wt.com
Attorney for Respond ents
Super Hype Publishi ng, Inc., Warner Music Group
Corp., Warner /Chappe ll Music, Inc., Atlantic
Recordi ng Corporation, and
Rhino Enterta inment Compan y

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckerga llagher.com

8790 Governor's Hill Drive
Suite 102
, Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Alfred J. (AJ) Fluehr, Esquire
FRANCIS ALEXANDER LLC
280 N. Providence Road I Suite 1
Media, PA 19063
(215) 341-1063
aj@francisalexa nder.com

Attorney for Petitioner
Michael Skidmore, Trustee for the
Randy Craig Wolfe Trust

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 6, 2020.

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

Cllr:3<-vvr 0/ ,dodo
13 1 ~

c1r~

Notary Public
[seal]

'~

